Final Cover.qxd   4/27/06   1:51 PM   Page 1
Final Cover.qxd   4/27/06     1:51 PM   Page 2




            Cover Pictures


            (front to back)

            The McNary Dam on the lower Columbia River along the border of Oregon and Washington

            Wind turbines at Tehachapi, California

            Tennessee Valley Authority’s Shawnee Plant in West Paducah, Kentucky
                           SEMIANNUAL REPORT TO CONGRESS




                         Table of Contents

Inspector General’s Message . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
        National Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
        Environmental Cleanup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
        Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
        Project Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
        Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
        Financial Management and Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12


Other Significant Accomplishments . . . . . . . . . . . . . . . . . . . . . . 15
        Administrative Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
        Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
        Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
        Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
        Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
        Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
        Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
        Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
        Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
        Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




                                                                i
U . S . D E PA RT M E N T O F E N E R G Y                                     OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                      ii
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Inspector General’s Message

I
   am pleased to provide the Office of Inspector
   General’s (OIG’s) Semiannual Report to Congress for
   the reporting period ending March 31, 2006.
This report highlights our most significant
accomplishments in identifying areas of
Department of Energy operations most
vulnerable to waste, fraud, and mismanagement.

During this reporting period, we continued to
assist the Department’s management in addressing
its mission-related priorities. As a direct result of
our audits and inspections, significant opportunities
for programmatic cost savings, operational efficiencies,
and enhanced mission accomplishments were identified.
We issued 53 audit and inspection reports, which contained
recommendations identifying over $25 million in savings and questioned costs. In addition,
we referred 35 investigations for prosecution and obtained 9 criminal convictions. Our
work led to the recovery of over $28 million in fines, settlements, and restitutions.

The Department has the monumental task of cleaning up numerous contaminated sites and
disposing of nuclear, hazardous, and mixed-waste left behind as a byproduct of nuclear
weapons production, other manufacturing and research and development processes, and
commercial nuclear energy production. As it pursues this and its other missions, the
Department must ensure the safety of the more than 130,000 Government and contractor
employees. In our yearly special report on the management challenges facing the Department,
we have again identified the area of “environmental cleanup” as a significant management
challenge. In addition, “worker and community safety” has been identified by our office as an
issue that warrants the attention of senior Department management into the future.

During the course of our work, the OIG places special emphasis on those issues that are
listed as significant management challenges. Consequently, over the past six months, we
have issued a number of reports addressing concerns in the areas of the environment, safety,
and health. These included reports concerning:
   ■ Management controls over radioactive and mixed waste shipments at the Hanford Site;

   ■ The status of the Mixed Oxide Fuel Fabrication Facility at the Savannah River Site;

   ■ Accelerated tank waste retrieval activities at the Hanford Site; and,

   ■ Demolition and replacement of Hanford’s Radiological Calibration Laboratory.




                                              1
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




Another critical aspect of the Department’s mission relating to environmental remediation is
the ongoing work on the Yucca Mountain Project, the purpose of which is to create a
geological repository that will safely isolate highly radioactive waste for at least 10,000 years.
Currently, radioactive materials that have accumulated since the mid-1940s are being stored
in temporary facilities at 131 sites in 39 states. In recent years, the OIG has examined
various aspects of the Yucca Mountain Project. During the current reporting period, we
reviewed allegations of quality assurance weaknesses vital to determining the viability of
Yucca Mountain as a waste repository. In addition, we currently have an ongoing audit
reviewing the Department’s plan to correct quality and internal control deficiencies at
Yucca Mountain.

                                                              Finally, in the wake of Hurricanes
                                                              Katrina and Rita, our office
                                                              initiated a review of the
                                                              Department’s efforts to assist in
                                                              restoring critical energy systems
                                                              in the affected regions. In the
                                                              coming months, as the Nation
                                                              faces another hurricane season,
                                                              we plan to further our efforts by
                                                              initiating reviews to evaluate
                                                              aspects of the Department’s
                                                              contingency planning efforts to
                                                              mitigate the impacts of future
                                                              natural disasters.

The Office of Inspector General remains committed to being an instrument for positive
change in the Department. I would like to express my appreciation for the diligent work
and accomplishments of all OIG employees and commend them for their continued
professionalism and dedication. We again look forward to serving the American taxpayers
in identifying ways that the Department of Energy can more effectively and efficiently
achieve its important mission responsibilities.




                                                 Gregory H. Friedman
                                                 Inspector General




                                                2
OFFICE OF INSPECTOR GENERAL                                U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Management Challenges

O
           n an annual basis, the Office of Inspector General identifies what it considers to be
           the most significant management challenges facing the Department. This effort
           highlights those programs and operations that are, in our judgment, the most
difficult to manage as well as those with the most significant demonstrated performance
problems. This year, the OIG determined that the most serious challenges facing the
Department are in the areas of:
      ■ National Security

      ■ Environmental Cleanup

      ■ Stockpile Stewardship

      ■ Contract Administration

      ■ Project Management

      ■ Information Technology

      ■ Financial Management and Reporting

The overall goal of determining management challenge areas on a yearly basis is to focus
attention on significant issues with the objective of enhancing the effectiveness of agency
programs and operations. Highlights of our work during the current reporting period,
which are set forth in the following sections of this report, are organized by management
challenge area.




National Security
A primary responsibility of the Department is to enhance national security through the
application of nuclear technology. In order to accomplish this goal, the Department oversees
the maintenance of the Nation’s nuclear weapons stockpile, develops infrastructure for and
ensures the security of the nuclear complex, strengthens international nuclear
nonproliferation controls, provides safe and effective nuclear power plants for the U.S. Navy,
and operates an array of national laboratories. In coordination with the Department of
Defense and other agencies, the Department continues to help ensure a safe and secure
world. Our reviews over the past six months identified ways that the Department could
further strengthen its efforts in the area of national security.

Implementation of the 2003 Design Basis Threat
The Department developed and periodically updates a Design Basis Threat (DBT) analysis
that reflects the most credible threats posed to Departmental assets and operations. An


                                               3
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




OIG audit determined that the National Nuclear Security Administration (NNSA) has
experienced delays in implementing changes, including new technologies, to meet the
safeguards and security performance requirements contained in the 2003 DBT. Until
NNSA fully integrates security planning and budgeting, and implements and evaluates the
effectiveness of permanent upgrades and security measures, it lacks assurance that the
Departmental assets and operations for which it is responsible are protected in the most
cost-effective manner. (IG-0705)


Security Clearance Terminations and Badge Retrieval
Due to the nature of its mission, the majority of the workforce at the Lawrence Livermore
National Laboratory (LLNL) possesses personnel security clearances. An OIG inspection
concluded that LLNL’s internal control structure was not adequate to ensure that security
badges were retrieved at the time of an employee’s departure or that security clearances of
departing employees were terminated in a timely manner. We made several
recommendations designed to address our findings and enhance security at the Laboratory.
(IG-0716)


Acquisition of Protective Force Weapons by Sandia
National Laboratory
In 2004, the protective force at Sandia National Laboratory–New Mexico (SNL) used a sole
source procurement to obtain 20 Milkor MGL Mk-1 6-shot grenade launchers and
associated equipment, which were intended to replace the protective force’s existing single-
shot grenade launchers. In November 2004, U.S. Customs and Border Protection detained
and eventually seized the equipment at the port of Los Angeles, California, for violation of
U.S. import regulations. We received an allegation that the Department’s Sandia Site Office
refused to use its authority to obtain the release of the grenade launchers from Customs.
We did not find evidence to support this allegation. However, during the course of our
review, we found that the Laboratory violated Federal and Department procurement and
security policies in the acquisition of the grenade launchers. Specifically, the grenade
launchers were not on the Department’s standardized firearms list, the acquisition was not
consistent with Federal and Department “Buy American” policies, and the purchase did not
comply with SNL’s procurement policy pertaining to sole source contracts. (IG-0715)


Internal Controls in the Office of Intelligence
An OIG inspection concluded that the Department’s Office of Intelligence did not have
adequate internal controls over its sensitive property. Specifically, we found that officials

        Public reports are available in full text on our website at www.ig.doe.gov



                                               4
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




had not located sensitive computer processing equipment or reported missing sensitive
property to the Office of Security, as required by Department policy. We were unable to
determine whether missing items had been used to process classified material. Additionally,
the Office of Intelligence maintained 287 items of sensitive property that had not been
entered into its property inventory as required. We recommended corrective actions to
strengthen internal controls over sensitive property in the Office of Intelligence in order to
improve accountability and deter possible misuse, theft, or other diversion of Government
property. (IG-0722)


Nuclear Detection Devices
An OIG audit, initiated to evaluate the Department’s efforts to coordinate radiation
detection research and development activities conducted by national laboratories, found that
the Department had not established formal mechanisms to coordinate radiation detection
research. As a result, neither the Department of Energy nor the Department of Homeland
Security had a complete inventory of relevant research being conducted at the national
laboratories. In our judgment, such an inventory is an essential tool for planning and
budgeting resources in order to avoid unnecessary research duplication, directing scarce
research dollars to the most promising technologies, and allocating research funding to the
laboratory having appropriate expertise in the technology under study. (IG-0720)




Environmental Cleanup
Since its establishment, the Department has maintained an important environmental
mission. With the end of the Cold War, this mission became of even greater importance, as
efforts to dispose of large volumes of solid and liquid radioactive waste became more
essential as a result of more than 50 years of nuclear defense work and energy research. The
Department is responsible for cleaning contaminated sites and disposing of radioactive waste
resulting from nuclear weapons production, nuclear powered naval vessels, and commercial
nuclear energy production. Due to the risks and hazards associated with this difficult and
costly task, we conducted the following reviews to help ensure that the Department is
fulfilling its mission with regard to environmental cleanup.


Accelerated Tank Waste Retrieval Activities at the Hanford Site
Under the 1989 Tri-Party Agreement between the Department, the Washington State
Department of Ecology, and the Environmental Protection Agency, firm milestones were
established for completing the retrieval of waste from underground tanks at the Hanford
Site. One of the critical milestones of the Agreement was the retrieval of waste from all of
the 16 single-shell tanks located in Hanford’s C-Tank Farm by the end of FY 2006. An


                                               5
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




OIG audit disclosed that, in terms of both schedule and cost, the Department will not meet
its Agreement milestone for the retrieval of waste from the single-shell tanks located at the
C-Farm. In addition, the Department estimated that waste retrieval costs have increased to
$215 million, more than doubling the initial estimate. In our judgment, the Department
                                          was overly optimistic about its ability to retrieve
                                          tank waste and it had not based its approach on
                                          sound retrieval experience and proven retrieval
                                          technologies. We concluded that our findings have
                                          broader implications for the entire tank waste
                                          cleanup effort, and as a result of tank waste
                                          retrieval delays and cost overruns, the Department’s
                                          ability to meet its Agreement milestone of
                                          removing waste from all single-shell tanks by 2018
Waste storage tanks at the Hanford Site   is in jeopardy. (IG-0706)


Demolition and Replacement of Hanford’s Radiological
Calibration Laboratory
The Department’s Radiological Calibration Laboratory, which is responsible for functions
related to dosimetry and radiological instrument calibrations at the Hanford Site, is
scheduled for demolition by the end of FY 2009 as part of the Office of Environmental
Management’s cleanup plan. An OIG audit found that the curtailment of operations at the
Laboratory, as currently planned, would leave the Office of Environmental Management
without site capability to perform internal and external dosimetry assessments and
radiological calibrations. We determined that since a planned replacement facility would
not provide the capabilities essential to meet the Office of Environmental Management’s
dosimetry and calibration needs, the Department risks increased costs from duplication of
resources and the loss of mission critical dosimetry and calibration services. As a result, we
recommended that the Department integrate programmatic resources and needs for
calibration and dosimetry services and perform a cost-benefit analysis of the available
options. (IG-0711)


Management Controls over the Hanford Site Transuranic
Mixed Tank Waste
In December 2003, the Department’s Office of River Protection began plans to retrieve, dry,
and package contact-handled transuranic mixed (TRUM) waste for shipment from the
Hanford Site to the Waste Isolation Pilot Plant (WIPP) in Carlsbad, New Mexico. An OIG
audit disclosed that the Department had not sufficiently addressed regulatory and
permitting issues prior to proceeding with the TRUM waste project. Specifically, the Office
of River Protection initiated the project and incentivized the contractor to complete work
without fully addressing issues relevant to obtaining the necessary permits to retrieve, treat,
and dispose of waste or completing regulatory actions required under the National


                                              6
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Environmental Policy Act of 1969. In April 2005, the Office of River Protection decided to
curtail work on this project and requested its contractor to prepare a transition plan. Our
review disclosed that had the Department followed key project management principles, its
project management plan may have identified risks and implemented mitigation strategies,
thereby eliminating the need to curtail the project. (OAS-M-06-01)

                                            Did you know?
  The Office of River Protection was established by Congress in 1998 with the exclusive
  focus of solving cleanup challenges at the Hanford Site, which contains 60 percent by
  volume of the Nation’s high-level radioactive waste.



Management Controls over Assessing Natural Resource Damage at
Rocky Flats
                                   While completing environmental cleanup activities at the
                                   Rocky Flats Environmental Technology Site, the Department
                                   must ensure that potential residual injuries to natural resources
                                   are identified and addressed in accordance with the
                                   Comprehensive Environmental Response, Compensation, and
                                   Liability Act through a process known as a Natural Resource
                                   Damage Assessment (NRDA). An OIG audit found that the
                                   Rocky Flats Project Office had not started the NRDA process.
                                   We found that in addition to the initiation of a NRDA
                                   process, integration of a Remedial Investigation/Feasibility
Pond sludge removal at Rocky Flats Study would permit the Department to use the expertise of
key personnel, with extensive knowledge of Rocky Flats and its natural resources
contamination, before site closure. The Rocky Flats Project Office concurred with our
recommendation and agreed to initiate the NRDA process at Rocky Flats. (OAS-M-06-02)




Contract Administration
To accomplish its mission, the Department places significant reliance on contractors,
employing over 100,000 contractor employees. Contracts are awarded to industrial
companies, academic institutions, and non-profit organizations that operate a broad range
of Department facilities. In fact, most of the Department’s operations are carried out
through contracts that consume about three-fourths of its budget. As a result, effective
contract oversight is an essential component of the Department’s management of its many
programs. The OIG conducted the following reviews in order to assess the Department’s
contract administration.




                                                  7
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




Special Report on the Management of the Clean Cities Conference
In March 2004, during the planning process for the 2005 Clean Cities Conference, the
Office of Energy Efficiency and Renewable Energy (EERE) initiated action to transition the
Conference to private industry, subsequently choosing a private company to assume all
responsibilities for managing the 2005 Conference. An OIG audit found that the
Department’s actions to transfer the 2005 Conference to private industry were not in
accordance with a Departmental guideline and did not comply with sound business
practices. We made recommendations designed to strengthen conference management
requirements. (OAS-SR-06-01)

                                    Did you know?
 The mission of the Clean Cities Program is to advance the Nation's economic,
 environmental, and energy security by supporting local decisions to adopt practices that
 contribute to the reduction of petroleum consumption. Since its inception in 1993, Clean
 Cities has put nearly one million alternative fuel vehicles on the road and displaced
 approximately one billion gallons of gasoline.



Management of Facility Contractors Assigned to the
Washington, D.C. Area
The Department frequently utilizes facility contractor employees for the Washington, D.C.
area to address technical and direct support needs of Headquarters program offices. An
OIG audit disclosed several opportunities to improve the management of this program.
Specifically, justifications as to the need for and durations of assignments had not been
prepared or were inadequate; assignments were routinely extended beyond the one-year
threshold; and, moving and other temporary living allowances paid to assignees varied
significantly from contractor to contractor and, in some cases, appeared excessive. After
being informed of our preliminary findings, management committed to changes needed to
improve the quality and accuracy of reporting and initiated action to improve oversight and
approval controls. While these were positive steps, we made several recommendations
designed to help those administering the program determine whether these types of
assignments are adequately justified, reasonable in duration, and cost-effective. (IG-0710)


Contributions to the Los Alamos National Laboratory Foundation
In 1996, the University of California, which manages and operates the Los Alamos National
Laboratory (LANL) for the Department, established a nonprofit foundation funded in part
by the Department to support educational outreach and community investment in New
Mexico. An OIG audit found that the University’s annual contributions for educational
research and community investment to the Los Alamos National Laboratory Foundation



                                             8
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




were not made in accordance with contract requirements. Since FY 1998, the Department
reimbursed the University of California $6 million for unallowable contributions. We
recommended that the Department’s Los Alamos Site Office make a determination regarding
the allowability of the $6 million in contributions charged to the contract and clarify whether
future contributions are allowable costs under the contract. (OAS-M-06-03)


Protective Force Contracts at the Oak Ridge Reservation
                                            An OIG inspection, initiated to determine whether
                                            the protective force contracts for the Oak Ridge
                                            Reservation had been modified to include
                                            incentives to reduce overtime, disclosed that the
                                            Oak Ridge protective force contracts did not
                                            include such incentives. Instead, the contract
                                            structure had the opposite effect on the overtime
                                            structure. We observed that the current protective
                                            force contracts at the Oak Ridge Reservation were
Rifle training at the Oak Ridge Reservation due to expire and that the Department planned to
award new protective force contracts using the same structure as the current contracts. We
concluded that this decision should be further evaluated based on the findings of this review.
(IG-0719)




Project Management
The Department undertakes numerous unique and complex multi-million dollar projects in
order to support its many goals and objectives. In recent years, the Department has
responded to weaknesses in the area of project management in order to improve the
discipline and structure for monitoring project performance. Utilizing stronger policies and
controls to ensure that ongoing projects are reevaluated frequently, the Department has made
project management a primary area of focus. Recent OIG reviews identified additional
necessary improvements to ensure that the Department’s project management principles are
effective and accomplishing their goals.


Quality Assurance Weaknesses in Yucca Mountain Electronic Mail
The Office of Civilian Radioactive Management’s (OCRWM’s) Administrative Procedure
16.1 Q, “Condition Reporting and Resolution,” which is applicable to Federal and
contractor employees working on Yucca Mountain matters, requires that “conditions adverse
to quality” be identified, investigated, reported, and resolved. The Nuclear Regulatory
Commission (NRC) process for granting a license for the Yucca Mountain nuclear waste


                                               9
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




                                         repository requires that the Department publicly
                                         disclose all documents, including e-mails, relevant
                                         to the process. An OIG inspection found that
                                         OCRWM’s process for reviewing approximately 10
                                         million archived e-mails for NRC process relevance
                                         did not fully ensure that quality assurance issues
                                         were promptly identified, investigated, reported,
                                         and resolved in accordance with Administrative
                                         Procedure 16.1 Q. Specifically, we found e-mails
                                         that identified possible conditions adverse to
Tunnel-boring machine breaks daylight at
                                         quality at Yucca Mountain that had not been
Yucca Mountain                           identified by Yucca Mountain personnel as
                                         requiring further review for quality assurance
conditions. We concluded that OCRWM should expand its quality assurance efforts to
include a more comprehensive review of the approximately 10 million archived e-mails.
(IG-0708)


Management of the Department’s Isotope Program
An OIG audit disclosed that the Department had not always provided researchers with the
isotopes needed to conduct planned research, much of which was designed to identify
breakthroughs in the diagnosis and treatment of various forms of cancer and other life-
threatening diseases. Specifically, our review disclosed that the Department:
      ■ Was unable to respond to approximately 250 requests for research isotopes in FYs

        2002 through 2004;
      ■ Had not adequately addressed recognized production problems during its Isotope

        Program planning process;
      ■ Adopted pricing and payment policies that made it very difficult, if not impossible,

        for the research community to purchase the Department isotopes; and,
      ■ Expended resources on maintaining unused or underutilized production facilities

        that could have been used to supplement production.

We made several recommendations designed to help management revitalize the Isotope
Program and permit it to better address the research community’s needs. (IG-0709)


                                     Did you know?
 The Department’s Isotope Program produces and sells stable and radioactive isotopes
 that are widely used by domestic and international customers for medicine, industry,
 research, and homeland security applications, including medical imaging to diagnose
 diseases and injuries, cancer treatment research, detection of explosives and drugs, and
 research aimed at limiting the production of acid rain.




                                             10
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Status of the Mixed Oxide Fuel Fabrication Facility
In September 2000, the United States and the Russian Federation signed the Plutonium
Management and Disposition Agreement, which committed each country to dispose of 34
metric tons of surplus plutonium. To meet this goal, NNSA planned to construct a Mixed
Oxide Fuel Fabrication (MOX) Facility at the Savannah River Site. An OIG audit
determined that the cost of the MOX facility will significantly exceed the amounts reported
to Congress in 2002. We made specific recommendations to facilitate the successful
completion of the project. (IG-0713)


Performance of the Miamisburg Closure Project
In May 2001, the OIG reported that the Department’s Miamisburg Closure Project would
not be completed under current cost and schedule requirements. An OIG follow-up audit
concluded that the Department is unlikely to achieve revised closure goals on the Project.
We found that the Department had not adequately planned for work scope uncertainties,
failing to sufficiently quantify the risk or reserve funds needed to cover uncertainties such as
employee pension costs and soil volumes that require remediation. We concluded that these
findings also could provide valuable lessons for the success of other closure projects.
(IG-0721)




Information Technology
Information technology is vital in assuring that the Department fulfills its mission and
provides efficient and effective services to the public. Given the important role of
information technology in the Federal Government, the Office of Management and Budget
included it as part of the President’s Management Agenda. While the Department has taken
a number of positive actions designed to improve the overall management of information
technology resources, additional improvements in this critical area are still needed. During
this reporting period, OIG reports have highlighted internal control weaknesses that have
impacted information technology systems and security.


Management of the Department’s Desktop Computer
Software Agreements
The Department and its facility contractors operate more than 110,000 desktop computers.
Although the Department had established several Department-wide software agreements, an
OIG audit found that it had not adequately managed the acquisition and maintenance of
desktop computer software licenses. We noted that, at the sites reviewed, the Department



                                               11
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




spent approximately $4.1 million more than necessary over the last five years to acquire and
maintain desktop software. We made several recommendations designed to increase the
efficiency of the Department’s desktop software management practices. (IG-0718)


The Federal Energy Regulatory Commission’s Unclassified
Cyber Security Program
An OIG audit found that while the Federal Energy Regulatory Commission continues to
make positive strides toward improving its unclassified cyber security systems, several
problems still exist that have the potential to put the Commission’s systems at risk.
Specifically, we found that:
      ■ Access controls, through strong password management, had not been properly

        implemented on some systems;
      ■ Software with known security vulnerabilities was not replaced in some instances and

        users were sometimes provided with higher level privileges than they needed to
        perform their duties; and,
      ■ Not all known cyber security weaknesses were properly identified and/or tracked

        to resolution.
Our audit revealed that these problems existed because the Commission had not
consistently performed compliance evaluations required by Federal security directives.
Management generally concurred with our recommendations, designed to aid management
in ensuring that all of the Commission’s critical systems are adequately protected.
(IG-0704)




Financial Management and Reporting
During this reporting period, the OIG identified financial management and reporting as a
new management challenge. The Department’s implementation of a new financial
management system combined with standing up a new financial services organization
resulted in a new organizational structure for performing financial services and accounting
operations, which adversely impacted the financial management and reporting capabilities
of the Department as well as the FY 2005 financial statement audit.


The Department of Energy’s FY 2005 Consolidated
Financial Statements
Pursuant to requirements established by the Government Management Reform Act of 1994,
the OIG engaged the independent public accounting firm of KPMG LLP to perform



                                            12
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




the annual audit of the Department’s consolidated financial statements. Audit work
performed by KPMG identified significant deficiencies in financial management and
reporting controls related to the Department’s FY 2005 consolidated financial statements.
As a result of these identified weaknesses, the OIG substantially augmented the audit effort
with Federal personnel.

During FY 2005, the Department experienced problems in preparing accurate consolidated
financial statements and providing adequate supporting documentation. Issues arose
regarding accountability and monitoring obligations, reconciling payment information with
the U.S. Treasury, and reconciling transactions to integrated contractor trial balances and
subsidiary ledgers. These deficiencies were, in large part, associated with the reorganization
of the Department’s accounting operations and circumstances surrounding the
implementation of a new accounting system. The Department was unable to correct
weaknesses and could not provide a number of supporting documents required for audit.
As a result, a disclaimer of opinion was issued on the Department’s FY 2005 consolidated
financial statements. (OAS-FS-06-01)




        Public reports are available in full text on our website at www.ig.doe.gov



                                              13
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     14
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Other Significant
                   Accomplishments

Administrative Safeguards
The Department’s Response to Hurricanes Katrina and Rita
Under the National Response Plan, the Department is the lead Federal agency for
Emergency Support Function-12 (ESF-12), which addresses the restoration of energy
systems after a natural disaster. An OIG audit found that the Department was effective in
fulfilling its responsibilities under the National Response Plan. Specifically,
the Department:
        ■ Initiated policy and regulatory actions needed to assist energy recovery efforts and

          mitigate the impact of hurricanes;
        ■ Coordinated with energy industry and with other governmental agencies to identify

          supporting resources and facilitate the restoration of energy systems; and,
        ■ Continuously monitored the status of energy system damage and repair work.

While the Department’s response mechanism was effective, we did identify certain actions
that could enhance future ESF-12 missions. These actions include improving
communication channels between private and government bodies and the Department,
strengthening the Department’s ability to identify emergency response assets in advance of
such events, and augmenting the staffing of ESF-12 emergency response teams. (IG-0707)


Selected Purchase Card Transactions at the Nevada Site Office
Our Purchase Card Task Force, which proactively reviews purchase card expenditures under
the General Services Administration SmartPay program, conducted a review of selected
purchase card transactions at the Nevada Site Office. We determined that internal controls
over site contractor Bechtel Nevada’s purchase card program could be improved.
Specifically, we found that purchase card transactions were not always reviewed and
approved by designated officials; purchase cardholders and approving officials were not
completing refresher training within required timeframes; and, Bechtel Nevada did not
reconcile monthly financial records, resulting in an overpayment of $16,515 over a two-year
period to the bank that issued the purchase cards. We made several recommendations
designed to improve internal controls over Bechtel Nevada’s purchase card program.
(INS-O-06-01)




                                              15
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Contractor Employee Pleads Guilty to Sexual Battery
of a Minor Child
As previously reported, an OIG investigation performed jointly with the Idaho Falls Police
Department determined that an Idaho National Laboratory fire department employee
engaged in sexual activity with a minor. The investigation found that the subject had
utilized a Government computer in furtherance of his illicit actions. The subject pled guilty
to one felony count of sexual battery to a minor under Idaho Code 18-1508A(1)(c). The
subject’s security clearance and employment were terminated. During this reporting period,
the subject was sentenced to 4 to 20 years incarceration and ordered to pay a $1,000 fine,
$250 to the Victim’s Relief Fund, and $47.50 in court fees. The subject was also ordered to
pay restitution to the victim’s family. (I05IF003)


Subject Sentenced for Unauthorized Possession of Four Stolen
Department Badges
As previously reported, a joint OIG investigation with the Federal Bureau of Investigation
(FBI) and the Bureau of Alcohol, Tobacco, Firearms and Explosives of a check-cashing scam
determined that three individuals manufactured and stole various forms of identification,
including Department credentials, to facilitate fraudulent activities. Over 100 victims were
identified during the investigation. Two subjects pled guilty to various Federal criminal
violations. One subject was sentenced by the U.S. District Court, District of New Mexico,
to 12 years and 1 month imprisonment and 3 years of supervised release, and was ordered
to pay a $700 special assessment fee. During this reporting period, the other subject was
sentenced to 72 months imprisonment, 3 years of supervised release, and a $1,000
assessment. Additionally, according to the terms of the plea agreement, the latter subject
forfeited to the Government computers, printers, cameras, a scanner, and a laminator.
(I04AL009)


Department Subcontractor Agrees to Qui Tam Settlement and
Sentenced for Conspiracy
As previously reported, a joint task force investigation relating to a Qui Tam complaint
determined that a Department subcontractor did not comply with welding and
nondestructive test requirements for valves manufactured under various Government
contracts. The investigation revealed that the subcontractor provided substandard valves to
the Government, some of which were used in the storage of depleted uranium hexafluoride.
During this reporting period, the former Vice President of the Military Division for the
Department subcontractor pled guilty in U.S. District Court, Northern District of Ohio, to
a violation of Title 18, U.S.C. Section 371, (Conspiracy to Commit Offense or to Defraud
United States) and nuclear safety violations under Title 42, U.S.C. Section 2273(a). The
subject was sentenced to 24 months incarceration, 3 years supervised release, and ordered to


                                             16
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




pay over $4 million in restitution. In addition, the Qui Tam complaint was settled resulting
in an agreement to pay $13,266,000. (I01OR008)

                                            Did you know?
  The False Claims Act (Act) prohibits any person from “knowingly” presenting a “false
  or fraudulent claim for payment or approval” to the Federal Government. The Act
  authorizes individual citizens to bring private suits, referred to as Qui Tam actions, to
  enforce the Act on behalf of the Government.



Chief Accountant for Hanford Site Subcontractor Accepts Pre-Trial
Diversion Agreement
An OIG investigation determined that a chief accountant for a Hanford Site Waste
Treatment Plant subcontractor altered numerous vendor invoices. The invoices were used as
supporting documentation for a fraudulently inflated subcontract termination claim, valued
at approximately $1 million. The subject initially was indicted on one-count criminal
violation of mail fraud and subsequently accepted a 12-month pre-trial diversion agreement.
Also, as a result of an OIG Report to Management, the subject, the subcontractor company
and its owner were suspended from Government contracting pending debarment
proceedings. (I04RL001)


Settlement Reached in Civil False Claims Investigation
A joint OIG investigation of a Qui Tam complaint filed under the False Claims Act
determined that a Department contractor submitted false claims and statements by
misrepresenting the cost impact of a voluntary accounting system change and by improperly
allocating various costs on numerous Government contracts. Those costs included general
and administrative costs, executive and management bonuses, and computer network costs.
The contractor entered into a $12.5 million civil settlement with the U.S. Government.
(I00LL005)


Employee Concerns Program Survey Recommendations
In May 2001, the Department’s Office of Employee Concerns issued the results of a survey
conducted by the National Academy of Public Administration (NAPA) on the effectiveness
of the Employee Concerns Program. An OIG inspection found that the recommendations
outlined in the NAPA survey were not effectively implemented throughout the Department.
Specifically, we found that Office of Employee Concerns officials did not require or request
that field officials take corrective actions in response to the report recommendations. In
addition, Office of Employee Concerns officials did not follow up with field sites to



                                                 17
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




determine if actions were taken to implement survey report recommendations. The results
of our inspection revealed that the Department did not maximize the potential benefit of
the NAPA survey results and the accompanying recommendations for improving the
Employee Concerns Program. (INS-L-06-02)


Federal Energy Regulatory Commission Employee Disciplined
An OIG investigation determined that a GS-14 FERC employee misused Government time
and equipment to work on a personal business enterprise. The employee was counseled and
reimbursed the Government over $10,000. (I04HQ003)


OIG Investigation Results in Guilty Plea for Theft of
Government Property
An OIG investigation determined that a Department contractor employee stole 628 pounds
of aluminum wire from the Oak Ridge National Laboratory and sold it to a local metals
dealer for personal gain. The OIG recovered the wire and obtained a confession from the
subject. The subject subsequently entered a guilty plea to a violation of Tennessee Code
Annotated 39-14-103 (Theft of Property, Class E Felony). He is currently awaiting
sentencing. (I04OR003)


Department Grant Recipient Sentenced for Fraud
As previously reported, a joint investigation as a result of a qui tam complaint determined
that a grant recipient submitted duplicate research results to more than one agency for
payment; billed for research reportedly done in-house but was improperly subcontracted to
others; and submitted invoices for personal purchases. The individual pled guilty to one
count of Title 18, U.S.C. Section 1341 (Mail Fraud) and one count of Title 26, U.S.C.
Section 7201 (Attempt to Evade or Defeat Tax). During this reporting period, the subject
agreed to pay $1.4 million pursuant to a global criminal and civil settlement. Of this
amount, over $1 million went to the U.S. Treasury to resolve the Qui Tam complaint and
the Internal Revenue Service received over $288,000 for criminal penalties and interest.
The subject was also sentenced to 5 years probation and 12 months home confinement with
electronic monitoring, ordered to pay a $20,000 fine, and $200 special assessment fee.
The individual was also debarred from Government contracting for a five- year period.
(I01PT001)




                                            18
OFFICE OF INSPECTOR GENERAL                           U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Former Contractor Employee at Brookhaven National Laboratory
Pleads Guilty to Misusing Credit Card
A joint OIG investigation with the Suffolk County Police Department determined that a
former Brookhaven National Laboratory contractor employee misused a Laboratory
computer and assigned credit card to purchase automotive parts for a personal vehicle.
Pursuant to a plea agreement with the District Attorney’s Office for Suffolk County, the
subject pled guilty to one count of Petit Larceny in violation of New York State Penal Law
section 155.25 and paid restitution in the amount of $11,570. (I04PT006)


Department Supplier Pleads Guilty to Trafficking in
Counterfeit Goods
A joint OIG investigation with the FBI and the Postal Inspection Service determined that
the owner of a wholesale computer parts reseller supplied $380,000 in counterfeit computer
memory kits to the Department’s Bettis and Knolls Atomic Power Laboratories. The parts
were determined to be counterfeit before they were installed. Pursuant to a plea agreement
with the U.S. Attorney’s Office for the District of New Hampshire, a principal of the
company pled guilty to one count in violation of trafficking in counterfeit goods under Title
18, U.S.C. Section 2320. (I02PT005)


Electronic Recording of Telephone and Radio Conversations
An OIG inspection found that protective force management at LANL was regularly
recording both telephone and radio conversations and that these recordings were not
conducted in compliance with Department policies and procedures. We recommended,
among other things, that the Laboratory terminate recording operations that were
inconsistent with Department regulations; obtain required proof of consent to record
conversations; and, assure full compliance with the Department’s records management
program. (IG-0717)


Subject Pleads Guilty to Wire Fraud in Scheme Involving
Purchase Cards
An OIG investigation determined that a former contractor employee of the Department’s
National Renewable Energy Laboratory (NREL) conspired with a print shop vendor to
submit 97 false claims totaling $126,175 using a Government purchase card. The subject
used the purchase card to place fraudulent NREL copy jobs with a complicit print shop
vendor. Both subjects pled guilty to various violations of Title 18 and are awaiting
sentencing. (I02DN003)



                                             19
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




Overbilling for Travel Costs
As previously reported, a False Claims Act investigation conducted with numerous law
enforcement agencies determined that a Department contractor failed to adjust travel costs
for credits or rebates received from travel vendors. The contractor entered into a $41.9
million civil settlement with the U.S. Government. During this reporting period, four
additional Department contractors each settled lawsuits concerning false claims allegedly
submitted to various agencies, including the Department of Energy, in connection with
travel reimbursement. One consulting firm agreed to pay $15 million to settle the matter.
The other companies agreed to pay $3,365,664, $4,471,980 and $2,770,000 respectively.
(I03AL020)




Results
Highlights of Positive Results Based on Office of Inspector
General Work
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:
   ■   The Federal Energy Regulatory Commission took action to update its information
       technology system’s vulnerability management methodology, to include increased
       compliance evaluations to determine whether systems are operating in accordance with
       security requirements.
   ■   The Department completed a cost-benefit analysis on the options for integrating the
       programmatic requirements of the Office of Environmental Management, the Office of
       Science, and other customers for services currently being provided at the Hanford
       Radiological Calibration Laboratory.
   ■   The Department took action to analyze and disseminate information on common or
       recurring cyber security weaknesses and required program offices to ensure that Federal
       and Departmental cyber security policy and guidance are communicated, understood,
       and implemented by line management across the complex, including contractors.
       Specifically, the Department established integrated teams of cyber security specialists
       that have visited numerous Office of Science and Office of Environmental
       Management field sites to evaluate key aspects of the sites’ cyber security programs
       and have recommended specific action items for improvement. Follow-up visits by
       the integrated teams are scheduled within one year to ensure that action items
       are corrected.
   ■   The Department has developed a list of assets from across the complex that are in use
       but could be diverted to emergency response if necessary.



                                               20
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




   ■   The Department has canceled plans to award a contract at Hanford’s Fast Flux Test
       Facility. Instead, work at the reactor will end once it is permanently shut down, so
       limited cleanup money can be spent on projects that present an immediate threat to the
       environment or safety.
   ■   The Department has initiated a plan to conduct a follow-up survey to assess the current
       effectiveness of the Employee Concerns Program.
   ■   The Department tasked the National Academies of Science to conduct an assessment of
       scientific and technical issues related to groundwater monitoring and contamination
       mitigation at LANL.
   ■   The Department’s Strategic Petroleum Reserve is implementing Homeland Security
       Presidential Directive 12, to ensure that appropriate background checks are conducted
       on current Federal, contractor and subcontractor personnel, as well as all new-hires.




Congressional Responses
During this reporting period, the OIG received 10 requests for information from Congress,
provided information in 15 instances, and briefed Committee staff on 8 occasions. In
addition, the Inspector General testified at a congressional hearing on February 14, 2006,
before the Subcommittee on National Security, Emerging Threats, and International
Relations, House Committee on Government Reform, on “National Security
Whistleblowers in the Post-9/11 Era – Lost in a Labyrinth and Facing Subtle Retaliation.”




Management Referral System
The OIG operates an extensive Management Referral System. Under this system, selected
matters received through the OIG Hotline or other sources are referred to the appropriate
Department manager or other Government agency for review and appropriate actions.

The OIG referred 92 complaints to Department management and other Government
agencies during this reporting period and specifically requested Department management to
respond concerning the actions taken on 47 of these complaints. Otherwise, Department
management is asked to respond if it develops information or takes action that it believes
should be reported. The following demonstrates management’s use of OIG-provided
information to stimulate positive change or to take decisive action:
   ■   A technical expert confirmed that there were computer security vulnerabilities at a
       Department laboratory and recommended further evaluation of risks associated with
       the current network-perimeter policies and documentation of the accepted risks in
       revising the laboratory’s Cyber Security Program Plan and Site Risk Assessment.


                                               21
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




       Scanning and penetration tests will be conducted to determine the effectiveness of the
       laboratory’s security controls. Also, the laboratory will incorporate a firewall on the
       network perimeter to supplement existing firewalls and provide an added measure of
       protection for the site.
   ■   Department management substantiated an allegation that a vice president of a
       laboratory contractor violated a DOE Order, directing all employees to send
       complaints regarding laboratory operations through a laboratory security department
       before sending them to the OIG. Consequently, the local Department site office
       worked with the laboratory to write clear and unambiguous language into the
       laboratory’s policy manual, clearly stating that complaints be directed to the OIG.
   ■   In response to a referral to Department management that a contractor supervisor allegedly
       had directed employees to charge personal time to a Department contract, the
       contractor’s internal auditors examined employee time charges and subsequently
       questioned the costs associated with about 434 hours of time charged. Further review by
       the local Department Site Office questioned the costs associated with the entire 1,074
       hours charged to the contract. The contracting officer issued a "Notice of Intent to
       Disallow Costs." The contracting officer also directed the contractor to report the details
       of actions taken and planned to ensure adequate control of time charging and approval.




Qui Tams
Since 1996, the OIG has been instrumental in working with the Department of Justice in
Qui Tam cases. The OIG is currently working on 24 Qui Tam lawsuits involving alleged
fraud against the Government in the amount of approximately $287 million. These cases
are highly resource intensive, requiring the active participation of OIG investigative and
audit assets. However, they have proven to be targets of opportunity within the Department
of Energy with a high return on our investments.




Intelligence Activities
The OIG issued two quarterly reports pursuant to Executive Order 12863, “President’s
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Intelligence Oversight Board concerning
intelligence activities the Inspectors General have reason to believe may be unlawful or
contrary to Executive order or Presidential directive. No intelligence activities were reported
during this period that were contrary to Executive order or Presidential directive.

However, we determined that officials in the Department’s Office of Intelligence did not
comply with the documentation requirements set forth in a Director of Central Intelligence


                                                22
OFFICE OF INSPECTOR GENERAL                                U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Directive when they granted an individual access to sensitive compartmented information
(SCI). They did not ensure that the entity processing the SCI request received all required
documentation. The Director of the Office of Intelligence stated that his office will ensure
that the entity processing an SCI request receives copies of all required documentation.




Legislative and Regulatory Review
The Inspector General Act of 1978, as amended, requires the OIG to review and comment
upon legislation and regulations relating to Department programs and to make
recommendations concerning the impact of such legislation or regulations on Departmental
economy and efficiency. The OIG coordinated and reviewed 19 legislative and regulatory
items during the reporting period.




Hotline System
The OIG operates a Hotline System to facilitate the reporting of allegations involving the
programs and activities under the auspices of the Department. During this reporting
period, 683 complaints were processed. The OIG Hotline System can be reached by calling
1-800-541-1625 or 1-202-586-4073.




                                             23
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     24
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                    Reports Issued

Audit Reports Issued – October 1, 2005, through March 31, 2006

Report                                                Date of                 Questioned
Number                        Title                    Issue      Savings       Costs
IG-0704          The Federal Energy Regulatory        10-06-05
                 Commission’s Unclassified Cyber
                 Security Program – 2005
IG-0705          The National Nuclear Security        10-07-05
                 Administration’s Implementation of
                 the 2003 Design Basis Threat
IG-0706          Accelerated Tank Waste Retrieval     10-17-05
                 Activities at the Hanford Site
IG-0707          The Department of Energy’s Response 11-09-05
                 to Hurricanes Katrina and Rita
IG-0709          Management of the Department’s       11-17-05   $4,900,000
                 Isotope Program
IG-0710          Management of Facility Contractors 11-21-05
                 Assigned to the Washington, D.C. Area
IG-0711          Demolition and Replacement of        12-05-05
                 Hanford’s Radiological Calibration
                 Laboratory
IG-0712          Management Challenges at the         12-14-05
                 Department of Energy
IG-0713          The Status of the Mixed Oxide        12-21-05
                 Fuel Fabrication Facility
IG-0714          Nuclear Material Availability        01-10-06
                 (Classified Report)
IG-0718          Management of the Department’s       01-30-06   $2,487,400
                 Desktop Computer Software
                 Enterprise License Agreements
IG-0720          Nuclear Detection Devices            02-28-06




                                                 25
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                          Date of                    Questioned
Number                Title                      Issue        Savings        Costs
IG-0721       Follow-up Audit Report on the     03-14-06
              Department of Energy’s
              Performance of the Miamisburg
              Closure Project
OAS-M-06-01   Management Controls over the      11-25-05
              Hanford Site Transuranic
              Mixed Tank Waste
OAS-M-06-02   Management Controls over          11-25-05
              Assessing Natural Resource
              Damage at Rocky Flats
OAS-M-06-03   Management Controls over the      12-30-05                     $6,000,000
              University of California’s
              Contributions to the
              Los Alamos National
              Laboratory Foundation
OAS-M-06-04   Management Controls over          02-08-06
              BWXT's Teaming Partner
              Arrangement at Pantex
OAS-L-06-01   The Department of Energy’s        11-09-05
              Radio Communications Systems
OAS-L-06-02   Property Transfers at the East    11-21-05
              Tennessee Technology Park
OAS-L-06-03   Defense Waste Processing          12-20-05
              Facility Operations at the
              Savannah River Site
OAS-L-06-04   Federal Managers’ Financial       12-20-05
              Integrity Act Audit Report
OAS-L-06-05   Management Controls over          01-05-06
              Technologies at the Special
              Nuclear Material Component
              Requalification Facility
OAS-L-06-06   Review of the Independent         01-10-06
              Auditor’s Report on The
              Institute for Genomic Research
              for the Year Ending
              December 31, 2004



                                           26
OFFICE OF INSPECTOR GENERAL                       U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                Date of              Questioned
Number                        Title                    Issue     Savings     Costs
OAS-L-06-07          The Department’s Management      02-09-06              $922,000
                     of United States Enrichment
                     Corporation Site Services
OAS-L-06-08          Personal Property Management     02-28-06
                     at Oak Ridge National
                     Laboratory and Brookhaven
                     National Laboratory
OAS-L-06-09          The Department of Energy’s       03-23-06
                     Management of the Northeast
                     Home Heating Oil Reserve
OAS-L-06-10          The Department’s Information     03-31-06
                     Technology Capital Planning
                     and Investment Control Process
OAS-V-06-01          Review of the Independent        10-03-05
                     Auditor’s Report on the Los
                     Alamos National Laboratory
                     Foundation for the Year Ended
                     December 31, 2004
OAS-V-06-02          Assessment of Changes to the     10-11-05              $366,000
                     Internal Control Structure and
                     Their Impact on the Allowability
                     of Costs Claimed by and Reimbursed
                     to Battelle – Pacific Northwest
                     Laboratory Under Department of
                     Energy Contract
                      No. DE-AC05-76RL01830
OAS-V-06-03          Review of the Independent      10-12-05
                     Auditor’s Report on New Mexico
                     Institute of Mining and
                     Technology for the Year Ended
                     June 30, 2004
OAS-V-06-04          Assessment of Changes to the     12-01-05
                     Internal Control Structure and
                     Their Impact on the Allowability
                     of Costs Claimed by and Reimbursed
                     to Westinghouse Waste Isolation
                     Division Under Department of Energy
                      Contract No. DE-AC04-86AL31950



                                              27
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                           Date of                    Questioned
Number                Title                       Issue        Savings        Costs
OAS-V-06-05   Assessment of Changes to the     12-13-05
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to Midwest Research
              Institute Under Department of
              Energy Contract
              No. DE-AC36-99GO10337
OAS-V-06-06   Assessment of Changes to the     12-20-05                      $2,032,805
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to Sandia
              Corporation Under Department
              of Energy Contract
              No. DE-AC04-94AL85000
OAS-V-06-07   Assessment of Changes to the     12-23-05                      $7,947,368
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to Los Alamos
              National Laboratory under
              Department of Energy Contract
              No. W-7405-ENG-36
OAS-V-06-08   Assessment of Changes to the       1-10-06
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to Honeywell
              Federal Manufacturing &
              Technologies, LLC Under
              Department of Energy Contract
              No. DE-AC04-01AL66850




                                        28
OFFICE OF INSPECTOR GENERAL                        U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                 Date of              Questioned
Number                        Title                     Issue     Savings     Costs
OAS-V-06-09          Assessment of Changes to the     01-12-06               $162,260
                     Internal Control Structure and
                     Their Impact on the Allowability
                     of Costs Claimed by and
                     Reimbursed to Lawrence Livermore
                     National Laboratory Under
                     Department of Energy Contract
                     No. W-7405-ENG-48
OAS-V-06-10          Assessment of Changes to the     01-19-06               $533,953
                     Internal Control Structure and
                     Their Impact on the Allowability
                     of Costs Claimed by and
                     Reimbursed to Washington TRU
                     Solutions, LLC Under Department
                     of Energy Contract
                     Nos. DE-AC04-01AL66444 and
                     DE-AC29-01AL66444
OAS-FS-06-01         The Department of Energy’s        11-14-05
                     Fiscal Year 2005 Consolidated
                     Financial Statements
OAS-FS-06-02         Information Technology           11-22-05
                     Management Letter on the Audit
                     of the Department of Energy’s
                     Consolidated Financial Statement
                     for Fiscal Year 2005
OAS-FS-06-03         Federal Energy Regulatory         12-06-05
                     Commission's Fiscal Year 2005
                     Financial Statement Audit
OAS-FS-06-04         Management Letter on the          12-15-05
                     Audit of the Department of
                     Energy’s Consolidated Financial
                     Statements for Fiscal Year 2005
OAS-FS/              Review of Actions to Correct      02-14-06
CA-06-01             Financial Control and
                     Reporting Weaknesses
OAS-FS/              Review of Actions to Correct      03-30-06
CA-06-02             Financial Control and
                     Reporting Weaknesses



                                                29
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Reports Issued –
October 1, 2005, through March 31, 2006*

Report Number                 Title                                                       Date of Issue

IG-0708                       Quality Assurance Weaknesses in the Review of                    11-09-05
                              Yucca Mountain Electronic Mail for Relevancy to
                              the Licensing Process
INS-L-06-01                   Purchase Card Transactions at the Bonneville                     11-16-05
                              Power Administration
INS-O-06-01                   Selected Purchase Card Transactions at the Nevada Site Office    11-22-05
IG-0715                       Acquisition of Protective Force Weapons by Sandia                01-12-06
                              National Laboratory, New Mexico
IG-0716                       Security Clearance Terminations and Badge Retrieval              01-19-06
                              at the Lawrence Livermore National Laboratory
IG-0717                       Electronic Recording of Telephone and Radio                      01-24-06
                              Conversations by Los Alamos National Laboratory
                              Protective Force Management
IG-0719                       Protective Force Contracts at the Oak Ridge Reservation          02-02-06
INS-L-06-02                   Implementation of Employee Concerns Program                      03-03-06
                              Survey Recommendations
INS-L-06-03                   Sandia National Laboratory Access to Sensitive                   03-07-06
                              Compartmented Information
IG-0722                       Internal Controls Over Sensitive Property in the                 03-13-06
                              Office of Intelligence
*Does not include non-public reports




                                                      30
OFFICE OF INSPECTOR GENERAL                                      U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                        Statistical Information

Audit Report Statistics – October 1, 2005, through March 31, 2006
The following table shows the total number of audit reports and the total dollar value of the
recommendations that funds be put to better use by management:

                                            Total            One Time                 Recurring              Total
                                           Number             Savings                  Savings              Savings
Those issued before the                           7      $1,573,636,213               $6,000,000          $1,579,636,213
reporting period for which
no management decision has
been made*
Those issued during the                         35             $7,387,400                         $0         $7,387,400
reporting period
Those for which a                 17                        $570,810,774                          $0       $570,810,774
management decision was
made during the reporting period*
Agreed to by management                                      $46,627,900                          $0        $46,627,900
Not agreed by management                                     $47,182,874                          $0        $47,182,874
Those for which a management                    18                          $0                    $0                  $0
decision is not required
Those for which no                                7      $1,487,212,839               $6,000,000          $1,493,212,839
management decision has
been made at the end of
the reporting period*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              31
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Audit Report Statistics – October 1, 2005, through March 31, 2006
The following table shows the total number of audit reports and the total dollar value of
questioned and unsupported costs.

                                                                      Total Questioned                    Unsupported
                                                                     Number   Costs                          Costs
Those issued before the reporting period for                              1             $151,354              $0
which no management decision has been made
Those issued during the reporting period                                  8         $18,054,386               $0
Those for which a management decision                                     8         $17,283,740               $0
was made during the reporting period*
Value of disallowed costs                                                             $8,098,722              $0
Value of costs not disallowed                                                         $6,000,000              $0
Those for which a management                                              1             $922,000              $0
decision is not required*
Those for which no management decision has                                0           $4,107,018              $0
been made at the end of the reporting period*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




Reports Lacking Management Decision
The Department has a system in place to track audit reports and management decisions.
Its purpose is to ensure that recommendations and corrective actions indicated by audit
agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below are audit reports over six months old that were issued before the
beginning of the reporting period and for which no management decisions had been
made by the end of the reporting period. The reasons management decisions had not
been made and the estimated dates (where available) for achieving management decisions
are also included.

        ■   Management Audits
            CR-B-99-02: Management of Unneeded Materials and Chemicals,
            September 30, 1999 – The management decision was signed on June 23, 2005
            assigning programs with the responsibility to develop disposal plans. The elements
            assigned the responsibility to develop disposition plans have recently finalized their plans
            to dispose of the Department’s unneeded materials and chemicals. The results of the



                                                              32
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




        management decision are being reviewed by the necessary Departmental elements. The
        final management decision will then be submitted for the Inspector General’s approva1.
        Completion of the review is expected by May 31, 2006.

        IG-0669: Use and Management of Mobile Communications Services,
        December 14, 2004 – The finalization of the management decision for this report is
        awaiting review of proposed cost for contracted support to perform the activities cited in
        the Inspector General audit. Beyond that, review and concurrence by the necessary
        Departmental Elements will be obtained. This should occur by June 30, 2006.

        IG-0686: Development and Implementation of the Department’s Enterprise
        Architecture, April 21, 2005 – The finalization of the management decision for this
        report is awaiting review and concurrence by the necessary Departmental Elements. This
        should occur by May 15, 2006.

        IG-0688: The National Nuclear Security Administration’s Pit Disassembly and
        Conversion Facility, May 3, 2005 – The finalization of the management decision is
        pending the resolution of complex issues. This should occur by
        December 31, 2006.


Prior Significant Recommendations Not Implemented
As of March 2006, closure actions on recommendations in 37 OIG reports had not been
fully implemented within 12 months from the date of report issuance. The OIG is
committed to working with management to expeditiously address the management decision
and corrective action process, recognizing that certain initiatives will require long-term,
sustained, and concerted efforts. The Department has undertaken a series of initiatives to
strengthen its process for addressing recommendations in OIG reports and closed 211
recommendations in the last 6 months. Management updates the Departmental Audit
Report Tracking System on a quarterly basis, most recently in March 2006. Information on
the status of any report recommendation can be obtained through the OIG’s Office of
Audit Services and Office of Inspections and Special Inquiries.




                                                33
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Statistics – October 1, 2005, through March 31, 2006

Inspections/Special Inquiries open at the start of this reporting period                                                        80
Inspections/Special Inquiries opened during this reporting period                                                               22
Inspections/Special Inquiries closed during this reporting period                                                               14
Inspections open at the end of this reporting period                                                                            88
Reports issued (includes non-public reports)                                                                                    12
Report Recommendations*
          Issued this reporting period                                                                                          37
          Accepted by management this reporting period                                                                          33
          Implemented by management this reporting period                                                                       32
Complaints referred to Department management/others                                                                             92
          Referrals to Department management requesting a response for OIG evaluation                                           47
*Includes non-public report recommendations




Hotline Statistics – October 1, 2005, through March 31, 2006

Hotline calls, emails, letters, and other complaints                                                                      683*
Hotline calls, emails, letters, and other complaints predicated                                                            228
Unresolved Hotline predications from previous reporting period                                                                  11
          Total Hotline predications                                                                                       239
Hotline predications transferred to the Management Referral System                                                         105
Hotline predications closed based upon preliminary OIG activity                                                            115
Hotline predications pending disposition                                                                                         9
          Total predications processed                                                                                     239
*The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                              34
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                              SEMIANNUAL REPORT TO CONGRESS




Investigative Statistics – October 1, 2005 through March 31, 2006

Investigations open at the start of this reporting period                                                                    278
Investigations opened during this reporting period                                                                            56
Investigations closed during this reporting period                                                                            63
Investigations open at the end of this reporting period                                                                      271
Qui Tam investigations opened                                                                                                      0
          Total open Qui Tam investigations as of 3/31/06                                                                     24
Multi-agency task force investigations opened                                                                                 20
          Total open multi-agency task force investigations as of 3/31/06                                                    125
Investigative reports to prosecutors and Department management                                                                23
Recommendations to management for positive change and other actions                                                           41
Administrative discipline and other management actions                                                                        34
Suspensions/Debarments                                                                                                        10
Investigations referred for prosecution                                                                                       35
           Accepted*                                                                                                          20
           Indictments                                                                                                        20
           Criminal convictions                                                                                                    9
           Pretrial diversions                                                                                                     1
           Civil actions                                                                                                           8
Fines, settlements, recoveries**                                                                          $ 28,387,306.27
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                                 35
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                            SEMIANNUAL REPORT TO CONGRESS




Feedback Sheet
The contents of the March 2006 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any
suggestions for making the report more responsive, please complete this feedback sheet
and return it to:

          United States Department of Energy
          Office of Inspector General (IG-1)
          Washington, D.C. 20585

          ATTN: Juston Fontaine



Name: __________________________________________________________________


Daytime Telephone Number: ________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed.)




                                               36
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
Final Cover.qxd   4/27/06     1:51 PM   Page 2




            Cover Pictures


            (front to back)

            The McNary Dam on the lower Columbia River along the border of Oregon and Washington

            Wind turbines at Tehachapi, California

            Tennessee Valley Authority’s Shawnee Plant in West Paducah, Kentucky
Final Cover.qxd   4/27/06   1:51 PM   Page 1
